                                        SOCIAL SECURITY
MEMORANDUM

Date:   March 3, 2003                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Referring
                 Potentially Fraudulent Enumeration Applications to the Office of the Inspector
        General (A-14-03-23052)


        The objective of our review was to determine the extent that the Social Security
        Administration (SSA) was adhering to its policy1 of referring potentially fraudulent Social
        Security number (SSN) applications to the Office of the Inspector General (OIG) for
        investigation.

        Referring Fraudulent Social Security Number Applications to the Office of the
        Inspector General

        SSA employees do not routinely refer potentially fraudulent SSN applications to SSA’s
        OIG for investigation. Although SSA policy requires these referrals, our review
        indicates that less than 30 percent are referred.

        These potentially fraudulent applications apparently were not referred for one or more
        of the following reasons.

        1. SSA employees know that the Office of the United States Attorney usually declines
           prosecutions of cases involving SSN applicants submitting false evidentiary
           documents absent aggravating circumstances (i.e., prior similar criminal acts);

        2. It would be impractical for OIG to examine each of these cases due to the large
           volume; and

        3. Although work credit for developing a fraud referral has been in effect for
           approximately 1 year, some SSA employees are still not aware of the credit.2


        1
         Program Operations Manual System (POMS) RM 00202.237D, Procedure - Documents are “Suspect” or
        “Fraudulent”.
        2
         Management Information Manual Part II, October, 2002: District Office Workload Report, Chapter 2210,
        Category 30; and District Office Workload Sampling, Chapter 3310, Category 30.
Page 2 - The Commissioner

These circumstances cause SSA employees to perceive that they will receive little
benefit in referring potential SSN fraud cases to OIG. Yet, when cases of suspected
fraud are not referred, the SSN application process becomes even more susceptible to
fraud.

Background on Measuring the Referral Rate

While studying potentially fraudulent SSN applications, we examined the SSA
Enumeration History File (EHF) for the week ending March 29, 2002. Of the
365,574 SSN applications examined, we found 239 applications SSA employees
suspected to be fraudulent. On May 1, 2002, we sent the 239 EHF records to the
OIG’s Office of Investigations (OI) to determine if SSA had referred the applications to
OIG, consistent with SSA policy.

SSA employees refer suspected fraud cases to OIG using a standard Reporting Form
for Programmatic Fraud. OIG inputs information on the referral forms into its Allegation
and Case Investigative System (ACIS).

OIG OI’s personnel searched ACIS for the 239 suspected fraudulent SSN applications,
first using the SSN issued at enumeration, then later using the applicant’s name. When
matching on SSN, OIG located only 14 of the 239 records. When matching on name,
another 64 records were located, although 11 of the 64 matched so many multiple
names in ACIS that no relationship could be established. For example, 1 name
contained within a potentially fraudulent application matched 105 identical names in
ACIS. Assuming that all of remaining multiple and single name matches are accurate,
we determined that only 67 of these 239 cases were referred to OIG for investigation,
thereby suggesting a referral rate of 28 percent.3

We discussed this situation with an SSA programmer who maintains the EHF and with
OIG managers responsible for allegation management. According to the SSA
programmer, the Modernized Enumeration System (MES), which processes
applications for new and replacement SSN cards, uniquely marks a possible fraud case
and prevents MES from automatically processing subsequent applications using the
same SSN. In addition, a copy of the potentially fraudulent enumeration record is
written to a separate file called the Disallowed File, which is available to SSA and OIG
for the purpose of analyzing trends.

We conducted our review at SSA Headquarters in Baltimore, Maryland, and completed
our field work between July and November 2002. Except for a limitation of scope
regarding the assessment of the internal controls over certain computer-based systems
and the reliability of the data they produce, we conducted our audit in accordance with
generally accepted government auditing standards.

3
 To arrive at the 67 fraud cases referred, we determined that 14 cases matched on SSN and possibly as
many as 53 (64 – 11) matched on name.
Page 3 - The Commissioner

Why Potential Fraud Cases Are Not Referred

OIG is familiar with the fraudulent MES applications described above and receives a
considerable volume of these potential fraud cases. Upon receipt of these referrals,
OIG establishes a record of the allegation in ACIS that uses the information contained
within each referral and then distributes these allegations to its Field Divisions.
Investigators review the cases and decide whether or not they rise to a level of
criminality that warrants investigation. Usually, individual cases do not reach the dollar
threshold or level of criminality required for prosecution, nor do they fit the parameters
                              4
for Civil Monetary Penalties. Furthermore, SSA’s general policy of not retaining
documentation unless requested to do so by the applicant lowers the possibility that
OIG will have enough credible evidence to prosecute fraud cases.5 By returning
evidence of the apparent fraud to the applicant, SSA reduces the integrity of referrals
that do occur and allows the perpetrator to reuse the fake documentation, which he or
she may have obtained at great cost.

Approximately 1 year ago, policy did not allow SSA field offices (FO) to receive work
credit for time spent referring possible fraudulent SSN applications to OIG. However,
SSA offices now receive work credit for completing and submitting a Standard
Reporting Form for Programmatic Fraud. OIG believes many offices may not be aware
of this change in policy, which reduces the incentive to refer potential MES fraud cases.

Referring Potential Fraud Cases

By emphasizing the availability of work credit for fraud referrals, SSA can help ensure
FO compliance with the policy for the referral of potentially fraudulent SSN application
allegations to OIG. Additional referrals will provide OIG with more comprehensive data
and will increase our ability to analyze trends detected in fraudulent SSN applications.
OIG will be able to analyze the source of fraudulent SSN applications in conjunction
with criminal allegations from other sources such as the hotline allegations and SSA
benefit applications.

By changing its policy and retaining evidence of possible fraud submitted by the SSN
applicant, SSA could assist OIG in prosecuting enumeration fraud cases, especially
when the perpetrator is an habitual offender. Taking apparently fraudulent

4
 Section 1129 of the Social Security Act, 42 U.S.C. §1320a-8, allows for the imposition of civil monetary
penalties against people who make certain material false statements or misrepresentations to qualify for
benefits.
5
  POMS GN 00301.275A, Retention or Return of Documents, Policy – Basic Rule, provides that “[w]hen
retention of evidence is necessary, retain the document(s) presented by the claimant only if the claimant
states during the interview or in his letter that the document can be kept permanently. Do not ask the
claimant whether the document may be retained; assume that he is not willing to give it up unless he
states otherwise.” SSA informed us that this policy applies to retention of documents submitted by
applicants for SSNs.
Page 4 - The Commissioner

documentation out of circulation will help prevent future enumeration fraud and make
the enumeration process less susceptible to fraud.

SSA should actively seek appropriate authority to impose administrative sanctions and
civil monetary penalties for SSN fraud. This will provide a viable alternative punishment
and deterrent when criminal prosecution is not feasible. Accordingly, the Agency
should develop and propose appropriate procedures for administrative sanctions and
penalties, which are designed to discourage people from using fraud in attempting to
obtain SSNs. For instance, administrative sanctions or penalties could be
imposed/assessed after providing proper notice to the individual whom attempted to
perpetrate a fraud. SSA could annotate the fraud on his or her authentic SSN record
using a pre-determined code. In the event that the perpetrator refuses to pay the
administrative penalty and has no assets, the debt would remain on his or her record to
be collected from future benefit amounts. Until the penalty is paid, the annotated SSN
record and open penalty or sanction could be used to prevent other administrative
services such as issuing replacement SSN cards, etc.

Recommendations

We recommend SSA:

1. Emphasize the availability of work credit for fraud referrals.

2. Ensure FO compliance with the policy for the referral of potentially fraudulent SSN
   application allegations to OIG.

3. Change its policy to have employees retain fraudulent or suspect documentation
   submitted by SSN applicants.

4. Identify alternative administrative sanctions that would discourage people from
   fraudulently attempting to obtain SSNs.

5. Actively seek appropriate authority for the imposition of civil monetary penalties and
   administrative sanctions for fraudulent attempts to obtain SSNs.

AGENCY COMMENTS

SSA agreed with our first two recommendations and issued an informational message
to all SSA facility managers highlighting the importance of formally referring suspected
fraud cases to the OIG in February 2003. The message emphasized the availability of
work credit for making the referral. SSA also agreed with our fifth recommendation that
it actively seek appropriate authority to impose civil monetary penalties for fraudulent
attempts to obtain SSNs.
Page 5 - The Commissioner

Although SSA agreed with the intent of our fourth recommendation and will study its
feasibility, the Agency is concerned about the cost of imposing administrative sanctions
and their effectiveness in deterring criminals, especially those who do not have a valid
SSN.

SSA disagreed with the third recommendation that it change its policy to have
employees retain fraudulent or suspect documentation submitted by SSN applicants.
The Agency stated that its employees do not know, at the time of the initial interview, if
the questionable documentation will be determined to be fraudulent, which depends on
verifying the documentation with its issuing source. Current procedure instructs
employees to copy documents in suspect cases due to concerns for the health and
safety of SSA employees.

OIG RESPONSE

We are pleased that the Agency agrees with and plans to implement four out of five of
our recommendations. With regard to Recommendation 3, while we continue to believe
that the optimal solution is the confiscation of potentially fraudulent documents, we
recognize that the Agency has legitimate concerns for the safety and well being of its
employees. Therefore, in the event SSA is unable to provide original documents, we
will work with copies of the questionable documents until such time that the Agency is
able to address its safety concerns.

In response to the Agency’s comments regarding Recommendation 5, we are pleased
that the Agency agreed on the use of civil monetary penalties for these types of
potential fraud cases. However, our ability to conduct any further investigative work will
be dependent upon the usefulness of the documentation supplied by the Agency.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.
                                   Appendices
APPENDIX A - Acronyms

APPENDIX B - Agency Comments

APPENDIX C - OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
ACIS   Allegation and Case Investigative System

EHF    Enumeration History File

FO     Field Office

MES    Modernized Enumeration System

OI     Office of Investigations

OIG    Office of the Inspector General

POMS   Program Operations Manual System

SSA    Social Security Administration

SSN    Social Security Number
                  Appendix B

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM

Date:      February 11, 2003                                                     Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Referring Fraudulent Enumeration
           Applications to the Office of the Inspector General”—INFORMATION



           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Staff questions can be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




                                                           B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “REFERRING FRAUDULENT ENUMERATION APPLICATIONS TO THE
OIG (A-14-03-23052)

We appreciate the opportunity to review and comment on the report contents and
recommendations. The Social Security Administration (SSA) is committed to, and strongly
supports, efforts to deter and prevent Social Security number (SSN) fraud, and we will continue
to work closely with OIG on these issues. In fact, the OIG is a full partner with representatives of
other SSA components in the Enumeration Response Team (ERT). Since 9/11, the ERT has been
the focal point within SSA for activities to examine and, where necessary, to tighten enumeration
policies and procedures. For instance, SSA has instituted procedures to cross-check with the
issuing agency the documentary evidence presented by both citizens and non-citizens in support
of applications for SSNs. Also, beginning in October 2002, aliens admitted to the US for
permanent residence can apply for a SSN as part of the visa process, ending SSA’s reliance on
easily counterfeited paper documentation. We are also in the process of clarifying the rules
pertaining to the issuance of SSNs to international students. When the new rule becomes
effective, an international student will be required to have an on-campus job or the promise of a
job before we will issue a SSN.

We agree that SSA and OIG should continue to pursue SSN fraud activity. Also, we would like
to note that to the extent that implementation of the proposed recommendations impacts the
working conditions of the bargaining unit employees, coordination with the appropriate, officially
recognized employee organizations, may be necessary. Our response to the specific
recommendations are provided below:

Recommendation 1

SSA should emphasize the availability of work credit for fraud referrals.

SSA Response

We agree, and on February 4, 2003 issued an informational message from the Deputy
Commissioner of Operations (DCO) to all facility managers highlighting the importance of
formally referring allegations to OIG. We included in that message a reminder that work credit is
assigned for fraud referrals.

Recommendation 2

SSA should ensure Field Office (FO) compliance with the policy for the referral of potentially
fraudulent SSN application allegations to OIG.




                                                B-2
SSA Response

We agree, and have taken steps to improve FO compliance. On August 2, 2002, Emergency
Message (EM) 02091 was issued to all FOs. The EM reminded employees to complete an E
8551 on all SSN applications determined to be fraudulent. In addition, we will highlight this
issue in the informational message described in recommendation number one.

Recommendation 3

SSA should change its policy to have employees retain fraudulent or suspect documentation
submitted by SSN applicants.

SSA Response

We disagree, because at the time of the initial SSN interview, SSA employees do not know if a
document will be determined fraudulent. SSA employees depend upon the issuing source to
determine document validity. On June 1, 2002, SSA began verifying all birth records with the
custodian of records for U.S. born SSN applicants 1 year old or older. Since September 2002, we
verify alien status for all non-citizen applicants with the Immigration and Naturalization Service
(INS). In addition, in our Brooklyn Social Security Card Center, OIG agents are readily
available, and in certain cases involving evidence of fraud they can confiscate suspect
documents. However, in all other offices current procedure is to copy documents in suspect
cases due to concerns for the health and safety of SSA employees who would be in the position
of confiscating possible fraudulent documents.

Recommendation 4

Identify alternative administrative sanctions that would discourage people from fraudulently
attempting to obtain SSNs.

SSA Response

We agree with the intent of the recommendation, but believe sanctions may not be an effective
mechanism for preventing fraud. We are concerned about the administrative cost and
complications of imposing sanctions in these situations. In addition, obtaining an SSN with false
documentation is a crime and should be treated as such. Selling Social Security cards can be a
lucrative illegal business, and we do not believe the imposition of administrative sanctions would
be a deterrent to those involved in such a business. Also, many of the applicants may never have
a valid SSN on which to apply the administrative sanction. We will perform further research and
analysis in this area.

Recommendation 5

SSA should actively seek appropriate authority for the imposition of civil monetary penalties and
administrative sanctions for fraudulent attempts to obtain SSNs.



                                               B-3
SSA Response

We agree. The Agency believes that this idea deserves serious consideration. We believe any
new sanctions should be imposed as a result of an OIG investigation, rather than a FO
administrative decision. By requiring an IG review, a more uniform application of penalties
could be achieved, a centralized due process system could be established and FO personnel
would be less subject to pressure and risk of physical harm from those who may present false
documents or from those who make them. From a practical standpoint, the IG could post
penalties using their ACIS system. We suggest the recommendation be changed to read,
“Actively seek appropriate authority for SSA to impose civil monetary penalties for fraudulent
attempts to obtain SSNs.”




                                              B-4
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division, (410) 965-9702

   Pat Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques
   (410) 965-9724

Acknowledgments

In addition to those named above:

      Carol Ann Frost, Computer Specialist

      Annette DeRito, Writer-Editor

For additional copies of this review, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-98-12041.
